Audit Report




OIG-14-033
SAFETY AND SOUNDNESS: Material Loss Review of First
National Bank
April 17, 2014




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report

Causes of First National Bank’s Failure ............................................................... 3
  Aggressive Growth Resulting in a High Concentration of CRE ........................... 3
  Undue Influence by the Former Chairman of the Board and Deficient Senior
     Management Oversight and Governance .................................................... 4

OCC’s Supervision of First National Bank ............................................................          5
  OCC Did Not Identify First National Bank’s Potentially Improper Accounting of
        2009 Capital Injections Until 2013 .......................................................              7
  OCC Did Not Timely Identify Improper Accounting for Nonaccrual Loans............                              9
  OCC Closed an MRA in 2010 Without Sufficient Evidence ..............................                         10
  OCC’s Use of Prompt Corrective Action .........................................................              13

Recommendations ............................................................................................ 14

Appendices

    Appendix    1:      Objectives, Scope, and Methodology ......................................              17
    Appendix    2:      Background..........................................................................   20
    Appendix    3:      Management Response .........................................................          22
    Appendix    4:      Major Contributors to This Report ...........................................          24
    Appendix    5:      Report Distribution ................................................................   25

Abbreviations

    FAS                 Financial Accounting Standards
    FDIC                Federal Deposit Insurance Corporation
    GAAP                Generally Accepted Accounting Procedures
    MRA                 matter requiring attention
    OCC                 Office of Comptroller of the Currency
    OIG                 Office of Inspector General
    PCA                 prompt corrective action
    ROE                 report of examination




                        Material Loss Review of First National Bank (OIG-14-033)                          Page i
         This Page Intentionally Left Blank




Material Loss Review of First National Bank (OIG-14-033)   Page ii
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                        April 17, 2014

                        Thomas J. Curry
                        Comptroller of the Currency

                        This report presents the results of our material loss review of
                        the failure of First National Bank (First National), Edinburg,
                        Texas, and of the Office of the Comptroller of the Currency’s
                        (OCC) supervision of the institution. OCC closed First National
                        and appointed the Federal Deposit Insurance Corporation (FDIC)
                        as receiver on September 13, 2013. Section 38(k) of the
                        Federal Deposit Insurance Act mandated this review because of
                        the magnitude of the bank’s estimated loss to the Deposit
                        Insurance Fund. 1,2 As of February 28, 2014, FDIC estimated
                        that loss at $637.5 million.

                        The objectives of our review were to determine the causes of
                        the bank’s failure; assess OCC’s supervision of the bank,
                        including implementation of the prompt corrective action (PCA)
                        provisions of section 38; and make recommendations for
                        preventing any such loss in the future. To accomplish these
                        objectives, we reviewed the supervisory files and interviewed
                        OCC and FDIC officials involved in the regulatory enforcement
                        matters. Appendix 1 contains a more detailed description of our
                        objectives, scope, and methodology. Appendix 2 contains
                        background information on First National’s history and OCC’s
                        assessment fees and examination hours.



1
    Effective July 21, 2010, section 38(k) defines a loss as material if it exceeds $150 million for
    calendar years 2012 and 2013 and $50 million for calendar years 2014 and thereafter (with a
    provision that the threshold can be raised temporarily to $75 million if certain conditions are
    met).
2
    Certain terms that are underlined when first used in this report, are defined in Safety and
    Soundness: Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is
    available on the Treasury Office of Inspector General’s (OIG) website at
    http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.

                        Material Loss Review of First National Bank (OIG-14-033)                       Page 1
In brief, our review found that First National failed primarily
because of (1) aggressive growth resulting in a high-
risk concentration of commercial real estate loans (CRE) and
(2) undue influence by the former chairman of the board and
deficient senior management oversight and governance.
Regarding supervision, OCC examiners generally followed
guidance in supervising First National; however, that supervision
did not prevent a material loss to the Deposit Insurance Fund.
We did find that OCC did not identify until 2013 (1) First
National’s potentially improper accounting of 2009 capital
injections and (2) First National’s practice of improperly
accounting for interest income on nonaccrual loans using the
cash-basis method. OCC closed a matter requiring attention
(MRA) in 2010 without sufficient evidence that bank
management had corrected the problem. OCC did make
appropriate use of PCA.

As a result of our audit, we referred certain matters to the
Treasury Inspector General’s Office of Investigations.

We are recommending that OCC remind examiners to follow
guidance in the OCC (1) Capital Accounts and Dividends
booklet regarding the documentation of material changes in a
bank’s capital accounts and (2) Examiner’s Guide to Problem
Bank Identification, Rehabilitation, and Resolution booklet
regarding watching for aggressive accounting positions taken by
management. We are also recommending that OCC expand its
examiner guidance in the Loan Portfolio Management booklet to
provide instructions regarding the proper accounting treatment
for nonaccrual loans.

In a written response, which is included as appendix 3, OCC
provided its planned corrective actions which we consider
responsive to our recommendations. However, OCC will need to
record the planned completion dates for taking these actions in
the Joint Audit Management Enterprise System (JAMES), the
Department of the Treasury’s audit recommendation tracking
system.




Material Loss Review of First National Bank (OIG-14-033)       Page 2
Causes of First National Bank’s Failure
              Aggressive Growth Resulting in a High Concentration of CRE

              OCC defines a concentration risk as risk in a loan portfolio that
              arises when a disproportionate number of an insured depository
              institution’s loans are concentrated in one or a small number of
              financial sectors, geographical areas, or borrowers. Contrary to
              safe and sound practices, First National’s board and
              management pursued a growth strategy which permitted
              significant concentrations in CRE without commensurate risk
              management practices. This aggressive growth strategy began
              in 2001, with the bank’s total assets increasing approximately
              22 percent per year, peaking in mid-2008 at $4.6 billion.
              Additionally, the bank grew its branches from 17 locations in
              1999 to 64 locations in 2009. As a result of this strategy, by
              June 30, 2008, First National’s CRE concentration as a percent
              of Tier 1capital plus allowance for loan and lease losses (ALLL)
              had increased to 531 percent.

              During this rapid growth, the board and management failed to
              institute credit administration policies, procedures and practices
              commensurate with the growth of the portfolio and increased
              risk. When underwriting its CRE loans, First National
              emphasized low loan-to-value (LTV) ratios and failed to
              adequately consider borrowers' sources of cash flow or liquidity
              to support loan repayment. The board and management's
              deficient oversight and failure to adjust quickly or effectively to
              changing economic conditions and the declining real estate
              market resulted in deterioration of the bank's asset quality;
              increased loan loss provisions and net losses; and dissipation of
              capital. First National fell to the critically undercapitalized PCA
              capital category effective July 30, 2013. OCC subsequently
              closed First National on September 13, 2013, and appointed
              FDIC as receiver.




              Material Loss Review of First National Bank (OIG-14-033)         Page 3
                         Undue Influence by the Former Chairman of the Board and
                         Deficient Senior Management Oversight and Governance

                         According to OCC examiners, the former chairman of the board 3
                         of First National exerted undue influence on the operations of
                         the bank. For example, the bank purchased $300 million of
                         investments in Federal National Mortgage Association (Fannie
                         Mae) and Federal Home Loan Mortgage Association (Freddie
                         Mac) as well as other financial institutions in 2008. 4,5 OCC
                         determined that the former chairman exerted undue influence in
                         the purchase and subsequent sale of the investments. The
                         bank’s divestiture of these investments resulted in a $174
                         million loss in the third quarter of 2008. This loss triggered the
                         need for additional capital.

                         An OCC examiner also stated that shortly before the bank
                         failed, a First National loan officer revealed to him that there
                         had been undue pressure from executive management to
                         change loan risk ratings to show a more positive condition.
                         Examiners noted several instances where the bank personnel
                         identified factors in loans that indicated a substandard credit,
                         but the loan risk rating would not be changed. As discussed in
                         greater detail below, bank management delayed recognition of
                         problem loans and associated losses, and that improper loan risk
                         ratings was a recurring issue since the 2006 examination. Also,
                         in 2011, OCC examiners determined that bank management
                         masked problems associated with financing other real estate
                         owned (OREO) sales.

                         As a result of the 2010 examination, OCC examiners concluded
                         that deficient senior management oversight or understanding of


3
    The bank’s board of directors asked the chairman to resign in September 2011. His resignation
     was effective November 1, 2011.
4
     Law and regulatory standards permit banks to purchase Fannie Mae and Freddie Mac securities
     without limitation; specifically, 12 U.S.C. 24 (Seventh) and OCC implementing guidance in
     12 C.F.R. Part 1, Investment Securities.
5
     Fannie Mae and Freddie Mac were created to provide stability in the secondary mortgage market
     and promote access to mortgage credit throughout the United States. By purchasing some
     mortgages and guaranteeing others, Fannie Mae and Freddie Mac help bring the liquidity of global
     capital markets to local banks and other financial institutions. These two GSEs operate solely in
     the mortgage market and were therefore very much exposed to fluctuations in the housing
     market. Fannie Mae and Freddie Mac were placed into conservatorship by the Federal Housing
     Finance Agency on September 7, 2008.

                         Material Loss Review of First National Bank (OIG-14-033)                  Page 4
                        technical credit administration practices had resulted in poor
                        credit administration practices. Some of those practices
                        included poor credit classification, weak underwriting and credit
                        analysis, as well as inappropriate and untimely appraisals. As
                        the loan portfolio experienced turnover, the development of a
                        management structure to properly oversee credit administration
                        was not a primary concern of the board and management. Prior
                        to 2010, the senior lending officer was responsible for credit
                        administration. However, OCC examiners concluded that
                        structure did not ensure proper independence or governance
                        over the lending area. An MRA issued as a result of this
                        examination required, among other things, that the board hire a
                        chief credit officer to oversee credit administration.

OCC’s Supervision of First National Bank
                        Overall, OCC examiners generally followed guidance in
                        supervising First National; however, that supervision did not
                        prevent a material loss to the Deposit Insurance Fund. We did
                        find that while OCC discovered serious issues with First
                        National in 2013, we believe these issues, specifically, First
                        National’s potentially improper accounting of the 2009 capital
                        injections and its income recognition on nonaccrual loans, could
                        have been discovered sooner. Also, OCC closed an MRA
                        without sufficient evidence that bank management had
                        corrected the problem.

                        Table 1 summarizes the results of OCC’s full-scope safety and
                        soundness and limited-scope examinations of First National from
                        2007 until the bank’s closure. 6 In general, an MRA, although
                        not an enforcement action, is a stronger supervisory response
                        than a corrective action.




6
    OCC conducted its examinations and performed off-site monitoring of First National in accordance
    with the timeframes prescribed in the OCC Examination Handbook.

                        Material Loss Review of First National Bank (OIG-14-033)                  Page 5
Table 1: Summary of OCC’s Examinations and Enforcement Actions for First National
                                                       Examination Results
                                                                 Number of
 Date started/   Assets (in      CAMELS               Number of corrective   Enforcement
 type of exam    (billions)      rating               MRAs       actions     actions
 9/10/2007
 Full-scope      $3.9            2/222221             0             0        None
 examination
                                                                             Memorandum of
                                                                             understanding
                                                                             (MOU)
 9/1/2008
                                                                             (1/27/2009) Indi
 Full-scope      $4.3            3/333322             6             0
                                                                             vidual minimum
 examination
                                                                             capital ratio
                                                                             (IMCR)
                                                                             (2/19/2009)
 8/17/2009                                                                   MOU and IMCR
 Full-scope      $3.8            3/343322             5             0        remained in
 examination                                                                 effect.
 5/25/2010                                                                   MOU and IMCR
 Targeted        $3.8            3/343322             0             0        remained in
 examination                                                                 effect.
 8/16/2010                                                                   Consent order
 Full-scope      $3.9            4/444333             6             7        #1
 examination                                                                 (2/8/2011)
 5/16/2011                                                                   Consent order
 Targeted        $3.8            4/444333             0             0        #1 remained in
 examination                                                                 effect.
                                                                             Consent order
 8/1/2011
                                                                             #2
 Full-scope      $3.7            5/455543             18            6
                                                                             (1/18/2012)
 examination


 3/2012                                                                      Consent order
 Targeted        $3.5            5/455543             1             0        #2 remained in
 examination                                                                 effect.

 8/13/2012
                                                                             PCA directive
 Full-scope      $3.5            5/555544             9             3
                                                                             (8/30/2013)
 examination
                                                                             Consent order
 3/2013                                                                      #2 and PCA
 Targeted        $3.3            5/555554             1             0        directive
 examination                                                                 remained in
                                                                             effect.
    Source: OCC supervisory files.




                 Material Loss Review of First National Bank (OIG-14-033)                    Page 6
                        OCC Did Not Identify First National Bank’s Potentially Improper
                        Accounting of 2009 Capital Injections Until 2013

                        OCC’s Capital Accounts and Dividends booklet instructs
                        examiners to review material changes in a bank’s capital
                        accounts. Records detailing the number of shares authorized,
                        issued, unissued, and the par value for each class of stock
                        should be maintained in the examination working papers.
                        Additionally, examiners should investigate changes in these
                        items to determine that necessary approvals have been obtained
                        and that the articles of association have been amended as
                        required.

                        OCC booklet An Examiner’s Guide to Problem Bank
                        Identification, Rehabilitation, and Resolution reminds examiners
                        that some problem banks may attempt to reduce losses or
                        increase income inappropriately. The guide states that if
                        improper accounting principles are applied, significant
                        misstatement of financial results and regulatory capital may
                        occur. Therefore, examiners are instructed to watch for
                        aggressive accounting positions taken by management, such as
                        banks inappropriately increasing capital by selling stock in
                        exchange for loans. The guide states such notes received in
                        exchange for capital stock should not be recorded as assets.
                        Rather, generally accepted accounting principles (GAAP)
                        requires that such loans be recorded as a deduction from
                        stockholders’ equity, unless they are secured by irrevocable
                        letters of credit or other liquid assets (e.g., certificates of
                        deposit) and are paid within a reasonably short period of time
                        (i.e., 90 days or less). Hence, the increase in capital is reduced
                        by the amount of the notes received as payment for the stock.

                        As of December 31, 2008, First National’s capital ratios were
                        6.32 percent for Tier 1 leverage and 9.6 percent for total risk-
                        based capital. In February 2009, pursuant to its authority 7 and
                        due to First National’s increased credit risk and reduced capital,
                        OCC established an individual minimum capital ratio (ICMR) for
                        the bank. The IMCR required First National to hold the higher
                        minimum capital ratios of 8 percent Tier 1 leverage and 12
                        percent total risk-based capital. Later in 2009, OCC examiners
                        noted that First National had received two capital injections

7
    12 U.S.C. § 3907(a)(2) and 12 C.F.R. Part 3, Subpart C

                        Material Loss Review of First National Bank (OIG-14-033)         Page 7
from the bank’s holding company in 2009 that totaled $35
million, and reported that the Tier 1 leverage and total risk-
based capital ratios were 8.93 percent and 12.35 percent
respectively, as of September 30, 2009.

In 2013, after the bank closed, OCC examiners learned from
FDIC investigators that holding company shareholders obtained
loans from First National in 2009 and may have used the
proceeds to purchase holding company stock. Funds from a
holding company stock sale were down-streamed to the bank
and reflected as capital on the bank’s call report. This would be
contrary to GAAP and OCC’s An Examiner’s Guide to Problem
Bank Identification, Rehabilitation, and Resolution if the stock
sale proceeds prove to have come from First National loans. If
the bank financed the sale of holding company stock by issuing
unsecured loans to the purchasers of the shares, then the
bank’s capital should not have been increased as a result of the
stock sale. At the time of our material loss review, OCC was
continuing its review of the capital injections to determine their
source, and had identified approximately $26 million in capital
that potentially should not have been counted as Tier 1 capital
in 2009. If this $26 million had not been counted as capital in
2009, the bank’s total risk-based capital ratio would have been
11.53 percent in September 2009, falling short of the IMCR
requirement of 12 percent for total risk-based capital. According
to OCC officials, if confirmed, this exclusion from Tier 1 capital
would not have had a significant impact on First National’s
ratings or the OCC’s enforcement actions at that time.

In 2009, other than noting that the capital was received from
the holding company, examiners did not document in the
working papers, the material changes in First National’s capital
accounts as a result of the capital injections totaling $35
million, in accordance with the Capital Accounts and Dividends
booklet. In light of the fact that First National was required to
hold higher capital ratios as discussed above, we asked OCC
officials why examiners did not consider the possibility that
bank management inappropriately increased capital by selling
stock in exchange for loans. OCC officials stated this possibility
was not considered at the time because the bank had previously
received capital injections from the holding company and there
were no red flags regarding the 2009 capital injections that

Material Loss Review of First National Bank (OIG-14-033)         Page 8
                       would have led examiners to do so. While we recognize the
                       judgment exercised by the examiners, we believe the examiners
                       should have drilled down on the source of these injections in
                       line with the guidance in An Examiner’s Guide to Problem Bank
                       Identification, Rehabilitation, and Resolution.

                       OCC Did Not Timely Identify Improper Accounting for
                       Nonaccrual Loans

                       GAAP allows two alternative accounting treatments for
                       nonaccrual loans: the cash-basis method and the cost-recovery
                       method. 8 Under the cash-basis method, no interest income is
                       accrued, but the interest portion of payments received may be
                       recognized as interest income. This method is appropriate if the
                       value of the loan (generally, the principal balance less any
                       charge-offs) is expected to be fully collected. If there is doubt
                       whether the loan will be collected, the cost-recovery method
                       must be used, which requires payments received to be applied
                       against principal, and no interest income is recognized.

                       Beginning in 2006 and continuing into 2013, OCC examiners
                       noted issues related to First National’s nonaccrual loans. OCC
                       issued an MRA in 2006 requiring the bank to identify
                       nonaccrual loans in a timely manner. This was followed by
                       multiple MRAs from 2008 through 2011 on the same issue. In
                       its 2009 MOU with the bank, OCC required the board to
                       develop and implement a written policy governing both the
                       identification of and the accounting treatment for nonaccrual
                       loans. In the 2011 and 2012 consent orders, OCC required the
                       board to revise the written credit policy to include procedures
                       governing the identification and accounting for nonaccrual loans
                       that are consistent with the requirements contained in the call
                       report instructions.

                       Although OCC repeatedly required the bank to adopt or change
                       policies governing the accounting for nonaccrual loans, First
                       National, in fact, was not following GAAP in its accounting
                       treatment for nonaccrual loans. OCC did not identify this
                       practice until early 2013, when examiners discovered that the
                       bank had been using cash basis accounting for nonaccrual loans


8
    Financial Accounting Standards Board Accounting Standards Codification 310-10-35

                       Material Loss Review of First National Bank (OIG-14-033)        Page 9
instead of the cost recovery method. When asked why this was
not discovered sooner, examiners stated that nonaccrual loans
typically do not receive steady or significant payments, so they
focused on whether the bank was properly identifying
nonaccrual loans not the accounting for payments received on
nonaccrual loans.

OCC examiners discovered the improper accounting in 2013 by
reviewing the payment histories for loans on nonaccrual, and
finding that interest payments received were being recorded as
income instead of being applied to reduce the principal loan
balances. When examiners questioned the bank in 2013
regarding this practice, First National officials stated that the
bank’s practice of using cash basis accounting for nonaccrual
loans had been in place for many years. OCC examiners
determined that the improper cash basis accounting treatment
for nonaccrual loans caused the bank to overstate earnings and
capital for 2011, 2012, and the first quarter of 2013 by $1.4
million, $9.8 million, and $3.6 million, respectively. In a June
2013 letter to the board of directors, OCC required First
National to immediately charge-off all interest income that had
been recorded contrary to call report instructions governing
nonaccrual loans, and to adhere to the bank’s nonaccrual
policies.

We noted that OCC’s Loan Portfolio Management booklet does
not have specific guidance to examiners regarding the
accounting treatment for nonaccrual loans. However, the
booklet An Examiner’s Guide to Problem Bank Identification,
Rehabilitation, and Resolution discussed above states that
examiners should check to see whether recorded loan balances
are fully collectible for those loans for which interest income is
recognized on a cash basis. We believe the Loan Portfolio
Management booklet should include similar language, and that
examiners should not wait to review a bank’s accounting
treatment for nonaccrual loans until it becomes a problem bank.

OCC Closed an MRA in 2010 Without Sufficient Evidence

During the 2008 full-scope examination, OCC noted that First
National’s balance of OREO was $24 million. During the 2009
examination, OCC noted that the OREO balance had increased

Material Loss Review of First National Bank (OIG-14-033)       Page 10
                        to $67 million as of July 31, 2009. Between the 2008 and
                        2009 examinations, the bank had sold $133 million of OREO.
                        As a result of the 2009 examination, OCC issued an MRA
                        regarding the bank’s non-compliance with Statement of
                        Financial Accounting Standards (FAS) 66, “Accounting for Sales
                        of Real Estate.” According to FAS 66, for a bank to accrue
                        interest income when financing the sale of OREO, a viable sale
                        must exist which includes loan terms that are commensurate
                        with the market, and the requisite down payment. 9 Without
                        each condition satisfied, the bank must account for the
                        transaction according to one of four methods outlined within
                        FAS 66, none of which allow for the accrual of interest income
                        until the conditions are met.

                        During the 2009 examination, all five bank-financed OREO sales
                        sampled by OCC had no down payments (i.e., no cash equity
                        by the investor), yet the bank accrued interest income for these
                        sales. OCC reported in its 2009 report of examination (ROE)
                        that improper accounting for the bank’s sales of OREO resulted
                        in an overstatement of earnings. OCC did not quantify the
                        overstatement of earnings from the improper accounting
                        treatment for the five OREO financed loans it reviewed.

                        As part of the 2009 MRA, OCC required First National to review
                        all OREO sales and determine if proper accounting had been
                        applied. In a February 2010 letter from bank management, OCC
                        received the results of the bank’s review of only those OREO
                        sales over $750,000. The letter stated that (1) the bank
                        reviewed all gains recorded on OREO sales from August 2008
                        through December 2009, (2) gains of over $1 million should
                        have been deferred, and (3) First National had recognized
                        additional losses of more than $412,000 on the sale of OREO.
                        While the bank appeared to have reviewed gains taken at the
                        time of the OREO sales, the letter did not mention a review of
                        accounting for accrued interest, which was the subject of the
                        2009 MRA.

                        In the same letter, bank management requested an exception to
                        the MRA requirement to look at all OREO sales. Specifically,

9
    A requisite down payment is the appropriate minimum initial investment expressed as a
    percentage of the sales value based on the type of asset (e.g., land, commercial property,
    residential, etc.)

                        Material Loss Review of First National Bank (OIG-14-033)                 Page 11
management requested to exclude from its review (1) all loans
for 1-4 family residential homes less than $750,000 and (2) all
other loans less than $250,000. This exclusion would have
meant that more than half of OREO loans less than $750,000,
worth a total of approximately $35.3 million, would not be
reviewed for improper accounting. An OCC examiner told us
that this request was not approved and that the bank did in fact
review all OREO sales less than $750,000 and found no issues.
However, unlike the review of loans over $750,000, there was
no examination documentation to support the examiner’s
statement that the bank had reviewed all OREO loans.

During the 2010 examination, OCC evaluated FAS 66
compliance and noted that the bank’s credit review area was
completing a checklist when loans were made to finance the
sale of OREO. OCC also noted that the checklist was
comprehensive and provided guidance on the matter. The OCC
examiner concluded the MRA had been addressed and closed
the MRA in September 2010. However, there was limited
evidence in the examination workpapers related to the work
performed to reach this conclusion.

As a result of the 2011 examination, OCC again issued an MRA
with respect to improper accounting issues regarding the bank’s
sales of OREO. Examiners determined that the bank had masked
its OREO problems by financing OREO sales on liberal terms,
capitalizing property taxes, and advancing funds on borrowers’
other loans to cause the borrowers to remain current on OREO
loans. The 2011 MRA expressed concerns over First National’s
aggressive strategy to sell OREO without implementing proper
accounting policies and practices, and directed the board to
make accounting adjustments and file amended call reports.

OCC’s Bank Supervision Process booklet states that examiners
should verify that the bank’s corrective actions to address
MRAs have been successful and timely. This includes verifying
that the bank is executing the action plans and evaluating
whether the actions the bank has taken or plans to take
adequately address the deficiencies. We found limited
examination documentation that showed OCC examiners
verified the actions taken by the bank to address the 2009
MRA.

Material Loss Review of First National Bank (OIG-14-033)     Page 12
                         OCC’s Use of Prompt Corrective Action

                         The purpose of PCA is to resolve problems of insured depository
                         institutions with the least possible long-term loss to the Deposit
                         Insurance Fund. PCA requires federal banking agencies to take
                         certain actions when an institution’s capital drops below certain
                         levels. PCA also gives regulators flexibility to supervise
                         institutions based on criteria other than capital levels.

                         First National was adequately capitalized as of June 30 and
                         September 30, 2012. Due to continued deterioration in asset
                         quality and associated losses, the bank became significantly
                         undercapitalized with the filing of its December 31, 2012, call
                         report 10 and OCC detailed this in a letter to the bank dated
                         January 31, 2013. The letter required First National to submit
                         a capital restoration plan (CRP), which the bank submitted on
                         March 15, 2013. In a letter to the bank dated April 30, 2013,
                         OCC rejected the plan because OCC was unable to determine
                         that the plan was realistic or likely to succeed in restoring First
                         National’s capital. Also, the plan did not contain information
                         required for an acceptable CRP, including an explanation of how
                         and when the bank would correct the unsafe or unsound
                         banking practices that caused the bank's capital to become
                         impaired. First National never submitted an acceptable plan. In a
                         letter dated August 1, 2013, OCC informed First National that
                         its capital level was critically undercapitalized with the filing of
                         its June 30, 2013, call report.

                         OCC issued a PCA directive to First National on August 30,
                         2013, which included provisions to, among other things,
                         preserve the bank’s assets, books, and records. Because of First
                         National’s failure to submit a viable capital restoration plan and
                         the substantial dissipation of the bank’s assets and earnings,
                         OCC placed First National into receivership. As First National’s
                         capital fell below adequately capitalized, we believe OCC took
                         appropriate action within its PCA authorities.

10
     The December 31, 2012 call report originally showed the bank to be significantly
     undercapitalized with a total risk-based capital ratio of 5.59 percent and a leverage ratio of 3
     percent. On April 18, 2013, First National filed an amended call report for December 31, 2012.
     The amended call report also showed the bank to be significantly undercapitalized with a total
     risk-based capital ratio of 4.85 percent and a leverage ratio of 2.47 percent.

                         Material Loss Review of First National Bank (OIG-14-033)                  Page 13
Recommendations
                        In our June 2012 In-Depth Review of the First National Bank of
                        Davis, Davis Oklahoma, we recommended that OCC remind
                        examiners of the importance of following OCC’s guidance
                        regarding verifying that the bank’s corrective actions have been
                        successful and timely. 11 In its response to this 2012
                        recommendation, OCC committed to reinforce the expectation
                        for its examiners to comply with all aspects of the Midsize and
                        Community Bank Supervision MRA Reference Guide 12 that was
                        distributed on July 1, 2010. OCC reported that this corrective
                        action had been implemented as of February 2013, referencing
                        a message that was sent to all employees on February 11,
                        2013. We note that OCC’s closure of the 2009 MRA occurred
                        prior to this February 2013 message. Ensuring examiners verify
                        that banks properly address MRAs is a matter requiring on-going
                        OCC management attention; accordingly, we making no new
                        recommendations in this area from our material loss review of
                        First National.

                        As a result of our review, however, we are making two new
                        recommendations. Specifically, we recommend that the
                        Comptroller of the Currency:

                        1. Remind examiners to follow OCC guidance in the (a) Capital
                           Accounts and Dividends booklet regarding the
                           documentation of material changes in a bank’s capital
                           accounts and (b) Examiner’s Guide to Problem Bank
                           Identification, Rehabilitation, and Resolution booklet
                           regarding watching for aggressive accounting positions taken
                           by management.

                            Management Response

                            As part of OCC’s ongoing discussions of lessons learned
                            with managers, OCC will share this finding and direct them
                            to ensure that material changes in a bank’s capital account

11
     Safety and Soundness: In-Depth Review of the First National Bank of Davis, Davis, Oklahoma,
     OIG-12-055 (June 7, 2012).
12
     The Midsize and Community Bank Supervision MRA Reference Guide, June, 2010, is designed to
     strengthen compliance with the policies and procedures of the OCC governing MRA criteria,
     reporting, follow-up, and recordkeeping.

                        Material Loss Review of First National Bank (OIG-14-033)             Page 14
                            are properly documented. OCC will also discuss this topic
                            during the next nationwide call with all midsize and
                            community bank examiners.

                            OIG Comment

                            Management’s proposed action is responsive to the
                            recommendation. OCC will need to record its planned
                            completion date for taking corrective action in JAMES.

                        2. Expand examiner guidance in the Loan Portfolio Management
                           booklet to provide instructions regarding the proper
                           accounting treatment for nonaccrual loans, including the
                           accounting for payments received on these loans.

                            Management Response

                            OCC stated that an update of the “Loan Portfolio
                            Management” booklet is scheduled to begin later this year
                            with publication in early 2015. OCC notes, however, that
                            relevant guidance on this topic can also be found in the
                            OCC’s “Rating Credit Risk” booklet, the Federal Financial
                            Institutions Examination Council’s Call Report Instructions,
                            and the OCC’s Bank Accounting Advisory Series. 13 The Bank
                            Accounting Advisory Series is updated annually and the
                            most recent update included an expanded discussion of how
                            to treat cash payments for nonaccrual loans.

                            OIG Comment

                            To the extent that the planned update to the booklet
                            addresses the proper accounting treatment for nonaccrual
                            loans, management’s proposed action is responsive to the
                            recommendation. OCC will need to record its planned
                            completion date for taking corrective action in JAMES.




13
     Auditor’s note: The Federal Financial Institutions Examination Council is a formal interagency
     body empowered under 12 U.S.C. Chapter 34, Federal Financial Institutions Examination Council,
     to prescribe uniform principles, standards, and report forms for the federal examination of
     financial institutions by the Board of Governors of the Federal Reserve System, the Consumer
     Financial Protection Bureau, FDIC, the National Credit Union Administration, and OCC.

                        Material Loss Review of First National Bank (OIG-14-033)               Page 15
                            * * * * *

We appreciate the courtesies and cooperation provided to our
staff during the audit. If you wish to discuss the report, you
may contact me at (202) 927-0384 or Theresa Cameron, Audit
Manager, at (202) 927-1011. Major contributors to this report
are listed in appendix 4.




Jeffrey Dye /s/
Audit Director




Material Loss Review of First National Bank (OIG-14-033)    Page 16
                       Appendix 1
                       Objectives, Scope, and Methodology




                       We conducted a material loss review of First National
                       Bank (First National), Edinburg, Texas, in response to our
                       mandate under section 38(k) of the Federal Deposit Insurance
                       Act. 14 This section provides that if the Deposit Insurance Fund
                       incurs a material loss with respect to an insured depository
                       institution, the inspector general for the appropriate federal
                       banking agency is to prepare a report to the agency that

                       •     ascertains why the institution’s problems resulted in a
                             material loss to the insurance fund;

                       •     reviews the agency’s supervision of the institution, including
                             its implementation of the prompt corrective action (PCA)
                             provisions of section 38; and

                       •     makes recommendations for preventing any such loss in the
                             future.

                       At the time of First National’s failure on September 13, 2013,
                       section 38(k) defined a loss as material if it exceeded $150
                       million. The law also requires the inspector general to complete
                       the report within 6 months after it becomes apparent that a
                       material loss to the Deposit Insurance Fund has been incurred.
                       We initiated this material loss review of First National based on
                       the loss estimate by the Federal Deposit Insurance Corporation
                       (FDIC), which was $637.5 million at the time of closing. As of
                       February 28, 2014, FDIC estimated that the loss would be
                       $637.5 million.

                       To accomplish our reporting objectives under section 38(k), we
                       conducted fieldwork at OCC’s headquarters in Washington,
                       D.C.; OCC’s district office in Dallas, Texas; and FDIC’s regional
                       office in Dallas, Texas. We conducted our fieldwork from
                       November 2013 through February 2014.

                       To assess the adequacy of OCC’s supervision of First National,
                       we determined (1) when OCC first identified the bank’s safety
                       and soundness problems, (2) the gravity of the problems, and
                       (3) the supervisory response OCC took to get the bank to


14
     12 U.S.C. § 1831o(k).


                       Material Loss Review of First National Bank (OIG-14-033)         Page 17
Appendix 1
Objectives, Scope, and Methodology




correct the problems. We also assessed whether OCC (1) might
have discovered problems earlier; (2) identified and reported all
the problems; and (3) issued comprehensive, timely, and
effective enforcement actions that dealt with any unsafe or
unsound activities. Specifically, we performed the following
work:

•   We determined that the period covered by our audit would
    be from February 2007, through the bank’s failure on
    September 13, 2013. This period included quarterly
    monitoring, six full-scope safety and soundness
    examinations, and three limited-scope examinations of First
    National by OCC.

•   We reviewed OCC’s supervisory files and records for the
    bank from 2007 through 2013. We analyzed examination
    reports, supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses
    to gain an understanding of the problems identified, the
    approach and methodology OCC used to assess the bank’s
    condition, and the action used by OCC to compel bank
    management to address deficient conditions. We did not
    conduct an independent or separate detailed review of the
    external auditor’s work or associated workpapers other than
    those incidentally available through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision with OCC officials, examiners and attorneys to
    obtain their perspectives on the bank’s condition and the
    scope of the examinations.

•   We selectively reviewed First National documents that had
    been taken by FDIC and inventoried by FDIC Division of
    Resolutions and Receivership personnel upon receivership.
    From FDIC’s inventory list, we identified documents for our
    review that were most likely to shed light on the reasons for
    the bank’s failure and OCC’s supervision of the institution.




Material Loss Review of First National Bank (OIG-14-033)      Page 18
                       Appendix 1
                       Objectives, Scope, and Methodology




                       •   We assessed OCC’s actions based on its internal guidance
                           and the requirements of the Federal Deposit Insurance Act. 15

                       We conducted this performance audit in accordance with
                       generally accepted government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe that the evidence obtained provides a reasonable
                       basis for our findings and conclusions based on our audit
                       objectives.




15
     12 U.S.C. § 1811 et seq.


                       Material Loss Review of First National Bank (OIG-14-033)      Page 19
Appendix 2
Background




First National Bank History

First National Bank (First National), Edinburg, Texas was a full-
service national bank with trust powers that was established in
1934. First National was wholly-owned by its holding company,
First National Bank Group, Inc. The bank’s headquarters and the
majority of its 52 branches were located in the McAllen-
Edinburg-Mission, Texas, metropolitan area, which borders
Mexico at the southernmost part of Texas and for the past
decade, has been one of the fastest growing metropolitan areas
in the nation.

First National pursued a growth strategy that commenced in
2001, funded primarily by non-core deposits. This strategy
permitted significant concentrations in commercial real estate
loans and construction and development loan portfolios, in the
bank’s local market areas, without commensurate risk
management practices or adequate capital to protect the bank
from a prolonged period of deteriorating asset quality. In 2001
alone, First National’s total assets doubled from approximately
$600 million to $1.2 billion. Thereafter, the bank’s total assets
increased approximately 22 percent per year, peaking in mid-
2008 at approximately $4.6 billion. The bank also reached its’
peak in the number of branches, at 64, in December 2009. At
the date of failure on September 13, 2013, First National had
$3.1 billion in total assets and 52 branches.

OCC Assessments Paid by First National Bank

OCC funds its operations in part through semiannual
assessments on national banks. OCC publishes annual fee
schedules, which include general assessments to be paid by
each institution based on the institution’s total assets. If the
institution is a problem bank (i.e., it has a CAMELS composite
rating of 3, 4, or 5), OCC also applies a surcharge to the
institution’s assessment to cover additional supervisory costs.
These surcharges are calculated by multiplying the sum of the
general assessment by 50 percent for 3-rated institutions or by
100 percent for 4- and 5-rated institutions. Table 2 shows the
amounts that First National paid from 2007 through 2013.



Material Loss Review of First National Bank (OIG-14-033)       Page 20
Appendix 2
Background




Table 2: Assessments Paid by First National to OCC, 2007—2013

   Billing Period               Exam Rating       Amount Paid
   1/1/2007-6/30/2007                 2             $324,364
   7/1/2007-12/31/2007                2              334,524
   1/1/2008-6/30/2008                 2              350,803
   7/1/2008-12/31/2008                3              367,272
   1/1/2009-6/30/2009                 3              345,796
   7/1/2009-12/31/2009                3              478,838
   1/1/2010-6/30/2010                 3              489,912
   7/1/2010-12/31/2010                4              495,026
   1/1/2011-6/30/2011                 4              491,372
   7/1/2011-12/31/2011                5              641,726
   1/1/2012-6/30/2012                 5              622,892
   7/1/2012-12/31/2012                5              620,462
   1/1/2013-6/30/2013                 5              599,014

Source: OCC.

Number of OCC Staff Hours Spent Examining First National

Table 3 shows the number of OCC staff hours spent examining
First National from 2007 to 2013.

Table 3: Number of OCC Hours Spent Examining First National, 2007-2013
                                  Number of
         Examination             Examination
          Start Date                  Hours
         9/10/2007                        1,436
          9/1/2008                        1,556
         8/17/2009                          319
         8/16/2010                        2,612
          8/1/2011                        4,751
         8/13/2012                        3,000
          8/1/2013                          500




Material Loss Review of First National Bank (OIG-14-033)            Page 21
Appendix 3
Management Response




Material Loss Review of First National Bank (OIG-14-033)   Page 22
Appendix 3
Management Response




Material Loss Review of First National Bank (OIG-14-033)   Page 23
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
April Ellison, Auditor-in-Charge
Clyburn Perry III, Program Analyst
Fawntrella Thompson, Referencer




Material Loss Review of First National Bank (OIG-14-033)   Page 24
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Acting Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of First National Bank (OIG-14-033)       Page 25
